OIG Audit Report GR-60-07-002

Office of Justice Programs Southwest Border Prosecution Initiative Funding Received by the Yuma County Attorneys Office, Yuma, Arizona

Audit Report GR-60-07-002


March 2007
Office of the Inspector General


Executive Summary


 The U.S. Department of Justice, Office of the Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP) to the Yuma County Attorney’s Office (Yuma County).
 Many drug and other criminal cases occurring along the southwest border are initiated by a federal law enforcement agency or a multi‑jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF). Many U.S. Attorneys, including the U.S. Attorney for the District of Arizona, have developed prosecution guidelines which govern the most common violations of federal law. These prosecution guidelines are used by law enforcement agencies to determine whether to file a case in federal, state, or county court. As a result, many federally initiated cases occurring near the southwest border are referred to the state or county for prosecution. 
 The SWBPI was established in FY 2002, when Congress began appropriating funds to reimburse state, county, parish, tribal, and municipal governments for costs associated with the prosecution of criminal cases declined-referred by local U.S. Attorneys’ offices. Reimbursements received from SWBPI funding may be used for any lawful purpose that is in the best interest of the jurisdiction, including support of government operations, purchase of equipment, or to pay staff salaries. For FY 2006, Congress appropriated $30 million for the SWBPI. 
 As of October 30, 2006, Yuma County had received SWBPI funding totaling $2,906,256 and requested an additional $1,208,750 for the second and third quarters of FY 2006. 
The objective of our audit was to determine if the SWBPI reimbursements received by Yuma County were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the SWBPI.
 We found that Yuma County did not maintain a listing of cases supporting the reimbursements requested. As a result, Yuma County was given a 30-day period to create the required supporting case listing. Additionally, we found that Yuma County claimed and was reimbursed for cases that were ineligible under the SWBPI guidelines, and the number of cases claimed for reimbursement for each case disposition category did not always reconcile to the supporting documentation. Based on the deficiencies listed below, we identified questioned costs totaling $284,338 and funds to better use totaling $17,500.1 Specifically, we found: 


Yuma County received reimbursements totaling $84,191 for cases that were not eligible under the SWBPI guidelines.

 Yuma County has requested but not yet received reimbursements totaling $17,500 for cases that were not eligible under SWBPI guidelines. 
 The number of cases claimed for reimbursement for each case disposition category did not always reconcile to the supporting documentation resulting in unsupported reimbursements totaling $200,147.

 These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope and methodology appear in Appendix I. 



Footnote

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs. However, not all findings are dollar-related. See Appendix II for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.








Return to OIG Home Page